                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL                               i.
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A13040057                                                                        Page 1 of 1



                 We investigated an NSF panelist1 who allegedly shared six NSF proposals with his
         subordinates at his home institution, breaching his confidentiality obligations. In our investigation
         report (attached), we concluded that the reviewer knowingly and purposefully breached his
         obligation for confidentiality to NSF by not obtaining prior permission from NSF to share the
         proposals. Although he asserted that this was an exception to his normal practice, the evidence
         demonstrated that he engaged in similar activities with respect to proposals he reviewed for NIH.

                We recommended NSF prohibit the panelist from service to NSF in an advisory capacity,
         including as a panelist or an ad hoc reviewer, for an appropriate time. Separately, we recommended
         that NSF: 1) take additional steps to remind reviewers more affirmatively of the obligation for
         confidentiality when accessing a proposal; and 2) mark proposals with a digital watermark alerting
         anyone other than the reviewer receiving a proposal to the confidential nature of its contents.

                NSF concurred with our report and banned the panelist from serving NSF as a reviewer,
         advisor, or consultant for three years. NSF also agreed to add a digital mark to proposals provided to
         reviewers to further emphasize the confidential nature of the review process.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
SENSITNE                                                                               SENSITI'/E




      National Science Foundation
        Office of Inspector General




                Report of Investigation
               Case Number A-13040057
                        December 30, 2013

                        This Report of Investigation is provided to you
                                 FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 5 52a. Please take appropriate precautions handling this report of investigation.

                                                                              NSF OIG Form 22b (1113)
SENSITIVE                                                                               SENSITIVE


                                               Executive Summary

        An NSF panelist (the Subject) 1 is alleged to have breached reviewer confidentiality by
sharing six NSF proposals assigned to him with his subordinates at his home institution. Our
investigation concludes that the preponderance of evidence supports finding that the Subject
knowirigly breached reviewer confidentiality in violation of his obligations as a panelist. We
recommend NSF take appropriate action, including prohibiting the Subject from serving NSF in
an advisory capacity for an appropriate period of time.

                                                  Background

        Prior to participation on a panel, NSF panelists read and sign an NSF Form 1230P2
certification and receive a briefmg on conflict of interests (COl) and confidentiality obligations.
Specifically, Form 1230P addresses confidentiality with respect to the review process
specifically states:

                 The Foundation receives proposals In [sic] confidence and protects
                 the confidentiality ()ftheir contents. For this reason, you must not
                 copy, quote, or otherwise use or disclose to anyone, including
                 your graduate students or post-doctoral or research associates,
                 any material from any proposal you are asked to review. If
                 you believe a colleague can make a substantial contribution to the
                 review, please obtain permission from the NSF program officer
                 before disclosing either the contents of the proposal or the name of
                 any applicant or principal investigator. [emphasis added]

This same language is displayed in FastLane to a panelist when he accesses a proposal to write a
review. 3 Form 1230P also includes a warning that "Unauthorized disclosure of any confidential
information could subject you to sanctions. " 4 Each panelist certifies to statements including "I
will not divulge or use any confidential information .... " 5

                                               OIG Investigation

        We conducted an investigation to assess whether the Subject breached the confidentiality
of the merit review process by assigning staff members at his home institution6 to review the
proposals for him.



1

2
    Tab 1, NSF Form 1230P.
3
    Tab 2, FastLane Confidentiality Warning.
4
    Tab 1.
5
    Tab 1.
6




                                                                                                      1
    SENSITIVE                                                                                                                                                                                                                                                                                 SENSITIVE


            As part of the initial allegation, we received an electronic copy of a spreadsheet listing six
    NSF proposals by proposal number, PI last name, submitting institution, and proposal title. 7 All
    six proposals corresponded with NSF panel               which included the Subject as a panelist. 8
    n-   +t.. .... ...., __ ...... ....,.....J ..... t... .................... ....,.,...t.. -----.-...-.1   :-..:i: ................... ...:i   +t.. .....   c, . t....~ ............... ,,...   _ .................................: ...   T ......   --1 ...... - - +t.... ...... _,..._,...1.
    VH LHC.O ;>_lJJ.C.Oau;,uc.;c.;L C.OavH _lJl.Upu;,aJ. J.HUJ.vaLC.OU LHC.O ..:JUUJC.OvL ;> J.C.O;>_lJC.OvLJ.VC.O J.UJ.C.O UH LHC.O paHCOJ..
                                                                                                                                                                                                                    9
    2 designated "L" for lead, and 4 designated "R" for reviewer. The roles on the spreadsheet
    corresponded with the Subject's role on the panel for each ofthe proposals. 10 The fmal two
    columns on the spreadsheet identified "Reviewer 1" and "Reviewer 2" by name; however none
    of those named were members of the NSF panel. 11 We correlated these reviewers' names with
    staff biographies posted on the Subject's home institution's web site. 12

        We also obtained additional documentation related to NIH proposals that alleged the
Subject distributed NIH proposals to his staff for review in a similar manner. 13 We contacted
NIHos Research Integrity Ofticer (RIO) for Extramural Research 14 and confirmed that NIH had
also received the allegations. NIH informed us that it had contacted the Subject's supervisor
about the alleged breach of reviewer confidentiality and subsequently received a letter from the
Subject withdrawing himself from further consideration as an NIH reviewer.

       We contacted the Subject and asked for his perspective on the evidence that he had
improperly disclosed the contents of the NSF proposals for which he provided written reviews. 15
He responded admitting that he created the spreadsheet16 and that he:

                                           consulted with some of the post doctorate scientists in my
                                           department without first obtaining prior approval to share
                                           confidential research proposals with them. Not all of the post
                                           doctorate scientists reflected on the spreadsheet ... were actually
                                           consulted or provided with all or part of the research proposals ....
                                           I took what I believed were some specific steps to limit access to
                                           the research proposals and to assure confidentiality within my
                                           department, but realize I failed to fully adhere to the confidentiality
                                           requirements with respect to these proposals and accept
                                           responsibility for this breach. [l 7J

7
       Tab 3.
8
       Tab4.
9
       Tab 3.
10
       Tab 4.
11
       Tab 4.
12
       Tab 5.
13
       Tab 6.
14

15
      Tab 6.
16
      Tab 8, page 2.
17
      Tab 8, page 2.

                                                                                                                                                                                                                                                                                                     2
SENSITIVE                                                                                            SENSITIVE



        The Subject explained that his handling ofthese proposals deviated from his normal
practice of signing the confidentiality agreement, reviewing the proposals himself, writing and
submitting the reviews himself, and attending the paneL 18 He attributed the current breach to
time pressure for a "quick turnaround ... (less than a month)" and the size and nature of the
proposals involved. 19 He also admitted that he did not have permission from the NSF program
officer to share the proposals with others. 20

         He wrote that he did not share his FastLane password with anyone and that he
downloaded the proposals to a secure server for which he alone controlled access. Thus, the
Subject was the one who accessed the proposals and the FastLane confidentiality statement. In
his letter, he noted specifically that he received the proposals between                  2012.21
The document properties for the spreadsheet indicated that the Subject created the spreadsheet
late on the night of          2012 (almost 6-10 days later). 22 The Subject's signature on his
Form 1230P is dated              2012. 23 The Panel met                     2012. The Subject's
only previous NSF panel participation occurred in          2007 for which he signed a Form 1230P
with the same confidentiality requirements. 24

        We obtained a copy of an email chain from                      that contrasts the Subject's
                   25
asserted scenario. The email distribution list includes all of the postdocs on the spreadsheet
and not a subset as suggested by the Subject's response. The second email in the sequence is a
directive to the administrative assistarJt to print the attached proposals and review criteria for the
postdocs to review. When printed, the Subject effectively lost his ability to control access to the
proposals by others. Because the attachments are not included in the email chain we received,
there is no indication whether the Subject attached complete or partial proposals. 26 His response,
supra, suggests that he only shared portions of proposals with his staff. However, it is unlikely
that he truncated the project descriptions, including details of the proposed centers' management
plans. These elements would have been necessary to produce reviews consistent with the NSF
program review criteria27 that he specifically directed his staff use in the third email. 28


18
     Tab 8, page 3.
19
     Tab 8, page 3.
20
     Tab 8, page 3.
21
     Tab 8, page 3, footnote 1.
22
     Tab 9.
23
     Tab 1.
24
     Tab 10.
25
     Tab 11.
26
     Tab 11.
27
    Tab 12. eJacket does not contain an uploaded copy of the template email to the Subject as it does for the each of
the other panelists. Although we cannot confirm that he received this email, it is this email that communicated the
review criteria to the panelists.
28
     Tab 11.

                                                                                                                    3
 SENSITIVE                                                                             SENSITIVE


          The materials relating to the NIH review process further contrast the Subject's assertion
 that this is an isolated incident demonstrating a pattern of conduct. These include emails
 showing that he used the same practice of distributing proposals to his staff to review NIH
          ' 29
 proposals.

        Furthermore, the NIH materials also demonstrate that he knew that the NIH proposals
 contained information that should not be shared but did so anyway. The Subject included in his
 response to us his letter resigning from reviewing NIH proposals. 30

                                             Conclusion

         The Subject's response to our letter and the emails obtained independently demonstrate
 that the Subject knowingly and purposefully violated the confidentiality requirements of his
 service to NSF as a panelist by providing copies of six proposals to his postdocs. This was not
 an isolated event but part of a broader pattern of conduct including his review of NIH proposals.

                                         Recommendation

       We recommend that NSF ban the Subject from serving NSF in an advisory capacity,
including as a panelist or ad hoc reviewer, for an appropriate period oftime.




29
     Tab 6.
30
     Tab 8, page 5.

                                                                                                  4
........   .....




                                                       NAli.ONAl SCilENCE FOUN.DAlriON
                                                             4201 WILSON BOULEVARD
                                                            ARLINGTON, VIRGINIA 22230




                                                                    May 19,2014




                                                 ·




                   Dear            :

                   You served on a National Science Foundation (NSF} panel in the Spring of 20 . As documented in the ·
                   attached Investigative Report prepared by NSF's Office of Inspector G.eneral (OIG), you violated NSF's
                   confidentiality rules by sharihg your assigned proposals
                                                                  .  -      with colleagues
                                                                                         .
                                                                                            fn your department
                                                                                                           .
                                                                                                                without
                   seeking permission from the NSF program director.

                   Violation of NSF's Confidentiality Rules and Sanctions

                   Prior to participation on a panet NSF panelists read and sigri NSF Form 1230P and receive a briefi:ng on
                   conflict of interests (COl} .and confidentiality obligations. Form 1230P addresses confidential_ity with
                   respect to the review process by specifying:

                            The Foundation receives propdsais iii confidence and protects the confidentiality
                            of their contents •. Fo:r this reason, you must not copy, quote; or otherwise use or
                             disclose to anyone, including your graduate stucients. or post~doctoralor research
                            associates; any material from any proposal you are :asked to review. If you believe a
                            colleague can make a substantial contribution to the review, please obtain permission
                            from the NSF program officer before discl~sing. either the contents
                                                                                          -. . .
                                                                                                   of the prbposa( or
                            the narile of any applicant or principal investigator; ·

                   You shared your proposals with :colleagues in your department without seeking permission from the
                   cognizant NSF program officer. I therefore conclude that you violated the NSF confidentiality rules,
                   After assessing the. i-elevant facts and circumstances
                                                                     .    of thi~ :case, I am imposing the following actio tis.   on
                   you:

                   Until May 31, 2017; you are prohibited from serving as a reviewer, advisor, or consultant for NSF.
                                                                                                 (2)




If you have any questions about the foregoing, please contact              , Assistant General Counsel,
at (703)292      .


                                                   Sin~ere'ly,      Q V1          j
                                               e>.fvevh,_olo       c;tS4 w~
                                                  Wanda E. Ward
                                                  Head, Office of International
                                                    and Integrative Activities

Investigative Report
